\

J

No. v

-30

R! INAL

i

FILED
JUN I 6 2021
OFFICE OF THE CLERK
SUPREME COURT; I iT

IN THE
SUPREME COURT OF THE UNITED STATES

Cammie L Marceaux

PETITIONER
Vs.

Tiffany & Bosco, P.A. et,al.,

RESPONDENT(S)

Arizona Supreme Court No. CV-20-0303-PR

ON PETITION FOR WRIT OF CERTIORARI

CAMMIE L. MARCEAUX
420 Elaine Dr Woodville TX 75979
409-377-0388
Jstme 1101 @live.com

r ■■

QUESTION (S) PRESENTED

The Questions Presented for review of this Court of last resort. Has the Only Power
Enlisted in it to rule upon the Land and the Law’s of this Land that our very own
“Constitution Of The United States”, has enacted upon it to Rule in Matters Pertaining to
the Rights of the Citizens of The United States to Enact for them. To Protect them when
in fact Their Life Their Liberty and or Their Right to Property have been Violated and or
Infringed upon. There has been no other Prior States Justices Courts that have yet to act.
Based on the Laws of the Land to Act for the Life, Liberty and or the Property
BELONGING TO THE Owner Cammie L. Marceaux.

1. The Question Under the Constitution 5th and 14th Amendment Clearly Identifies the
Questions Before this court Was Cammie’s Privileges or Immunities of Citizenship in
the United States Deprived of Peaceful Enjoyment in her Life her Liberties and the
Quiet Enjoyment of her Property?
2. Was Cammie Deprived of Equal Protections under the Laws of the Land that was
afforded to her Under the Constitution Of The United State and Afforded Judicial
D ue Process in a Court Of Law?
A. Where, a Hearing be set, and Evidence could be presented an expert witness to the
Property issues be heard? Under the Constitution in the 14th Amendment of the
United States Constitution does it not state that Property Owners have the Right to
Due Process?
3.

In the taken Clause of the 5th Amendment in the Constitution comes into question
here. Cammie’s Property worth $230,000 was taken for $16,000. Was Cammie’s
Property taken for Just Compensation?

4. Would it not be Unconstitutional to Not allow a standing at all in any Court to bring
Evidence that Proves a Lack of Standing by a Trustee acting on an invalid Transfer of
Authorizations to act upon a Illegally Deposited Mortgage Note into a Trust 13 Years
after the closing date of that Trust?

5. Under The Constitution Of the United States There are protection that only this Court
Grants to a Citizen of the United States on a Property i ssues that can and was Created
to challenge a Trustees Authority that States do not challenge in any other Justice
Courts Prior to this authority in which is Enacted Upon in this Court is it not?

6. The Final Question before this Court is again Under the Constitution 5dl and 14th
Amendment The Taken Clause When in Fact Cammie’s Property was being
forcefully Sold to a 3rd Party Investor For Lawyers Title agency FF3 LLC. And
being forcefully stolen from her after she had bought the Property for $229,000 been
the Owner of the Property for 13 years and placed $57,000 Cash Down Paid off a
$38,000 Pool and Paid for the property the 13 years and HOA Dues Land
maintenance Pool maintenance and Taxes and Insurance and a mortgage
Payment that also added an extreme Flocculating Interest Rate. Then in 2017
The Title Owner Daniel R Sanders July 25th 2017 Signed over his Rights to Cammie
of the Interest he had in the Title. That Cammie Was Threatened to sign over her
Property Rights based on a TRUST Owed Prior to her Purchase in 2006 was used on
Cammie.
7. Cammie was then forced to take $16,000 From the Third Party Investor or face a
Foreclosure. Cammie was charged for legal fees and Foreclosure fees and then her
property was forcefully taken for $16,000.00 is That a Fair price to pay Cammie for
her Property that was not for sale? That the Owner Daniel R Sanders had her
Mortgage serviced for him and he sold Cammie the Property and Never Deposited the
Note in the TRUST until 13 years later when they got caught. Is this Not an Illegally
conducted Seizer of Cammie’s Property by Force?

LIST OF PARTIES

All Parties DO NOT appear in the Caption of this case on the cover page. A list of
all the Parties to the Pleading in the Court whose Judgement is the subject of this
petition is as follows:
Defendant (S)
Case No CV- 2017-053676 See Also Case NO.l CA-Cv-18-0542
1. Steven Baker

Pro Se—Owner Agent

5234 W.ElCortez Trail Phoenix AZ 85083
2.

Kenneth Short
P.O. Box 5908 Sun City AZ 85376

Pro Se Cammie’s Agent

3. Myriam Silvers

(Representative)—— Title Agent

4. Fidelity National Title Agency

(same as title agent)

Representative (s)
Jamie Thompson and Patrick Davis
Fidelity National Law Group
2355 East Camelback Rd Suite 900 Phoenix AZ 85016
5. Gentry 21 Northwest (Representative)
Robert Stewart Jr.
1747 East Morton Avenue Suite 105
Phoenix AZ 85020
6. Daniel R Sanders
9806 W. Amber TRL.
Sun City AZ 85351

Pro Se

7. Wells Fargo Bank Na

And

8. US. Bank NA (Representatives)
Gregory Marshall & Joshua Zimmerman
Snell & Wilmer L.L.P
One Arizona Center
400 E. Van Buren, Suite 1900
Phoenix AZ 85004

9, Suburban Mortgage Corporation

(Representatives) -—Mortgage

Note Holder.
John Burie, Andrea M. Simbro
Warner Angle Hallman Jackson and Formanek
2555 EAST Camelback RD Suite 800
Phoenix AZ 85016

Defendants Case No, CV-2019-000496 And Case No. 1 CA-CV19-0600
10. Tiffany & Bosco A.P &
11. Lenard J Mcdonald (Jr)

Represented By (Michael F. Bosco and Lenard J Me Donald (jr)
Tiffany & Bosco A.P.
Seventh Floor Camelback Eesplande II
2525 EAST Camelback Road
Phoenix AZ 85016- 4237

12. Fidelity National Title Agency

(Represenative)

13. Lawyers Title Agency

(Represenative)

Jamie Thompson and Patrick Davis :
Fidelity National Law Group
2355 East Camelback Road, Suite 900
Phoenix, AZ 85016

1

RELATED CASES

CAMMIE MARCEAUX

PETITIONER

VS. .
TIFFANY & BOSCO, P.A., et al.,

DEFENDANTS

MARICOPA COUNTY SUPERIOR COURT
No. CV2019-000496 - Judge on Appeal: Honorable Roger E. Brodman On
Judgement Entered
September 4,2019, October 4,2019
Notice of appeal Docketed on 8/6/2019
9/4/2019

Judgement

9/4/2019

Judgement

10/7/2019

Judgement

10/15/2019

Judgement

COURT OF APPEALS, DIVISION ONE
No.l CA- CV19-0600- Memorandum Issued March 5, 2020
Division One Court ofAppeals: Judges on Appeal:
Honorable David D. Weinweig
Honorable Jennifer M. Perkins
Honorable James B. Morse Jr.
Arizona Supreme Court
No. CV-20-0303- Petition to review denied
Arizona Supreme Court judges on Appeal
Honorable Brutinal,
Honorable Bolick,
Honorable Beene
Honorable Montgomery

May 10, 2021

«
1

Related Case(s)
Maricopa County Superior Court
CV-2017-053676 Superior Court
Petitioner

CAMMIEL. MARCEAUX_____
VS.
STEVEN BAKER, ETAL., Defendant (s)
Original Civil Complain Filled

7/27/2017

Breach of Contract and Quiet Title Action
MARICOPA COUNTY SUPERIOR COURT Case

No. CV-2017-053676

Judges on Appeal
Honorable Susan Bronovich
Honorable Rande H. Warner
Honorable John R. Hannah Jr.
Honorable Theodore Campagnolo

5/25/2018

Judgement

Fidelity National Title Agency Inc. $525.00

5/25/2018

Judgement

Suburban Mortgage $297.00

5/25/2018

Judgement

5/25/2018

Order

7/23/2018

Order

6/7/2018

Order

5/30/2018

Ruling

1

(Related Cases)

COURT OF APPEALS DIVISION ONE CASE No. 1 CA-CV18-0542
Judges on Appeal:
Honorable Dian M. Johnson
Honorable Kenton D. Jones
Honorable James B. Morse Jr.
6/10/2019 Memorandum

Jurisdictional Statement:
Under Rule 11 of this Court the Date Sought for Review in this court is
within the time limits filled in a timely Appeal to this court and all other
Justice Court fillings on Appeal have been Timely Filled and Ruled Upon
there are no pending issues in any of the Other State Justice Courts
pertaining to this Case Presented to this US Supreme Court Rules 31 and
Rule 33 Have been timely served and filled on all parties pertaining to these
cases. This Case is Ripe to Proceed at the United States Supreme Court to
Grant This Petitioner a of Writ of Certiorari.

11

Table of Contents
Questions Presented for review
List of Parties
i.

ii.
iii.
iv.

Related Cases
Table of Contents
Index to the Appendix
Table of Authorities

1. Opinions Below
2. Statement of Jurisdiction
3. Constitutional Provisions and Statues Involved
4. Statement of the Case
5. Reason for Granting Writ of Certiorari

Proof ofService

Ill

Index of Appendix
A. Last State Justice court Ruling May 1.0, 2021 For Evidence of a Timely
Appeal to this U.S. Supreme Justice Court. Case No CV-20-0303-PR
B. Expert Witness Report Noterized on Securities Trust Account.

C. ASSIGNMENT into Trust account June 20, 2017
D. Deed Of Trust Registered April 1, 2006
E. Law Firm Representing the Trust for U.S. Bank N.A.
F. The Advertised Property in 2006 Owner /Agent Steven Baker
G. Tiffany and Bosco Foreclosure Trustee Lenard McDonald Jr.
H. Notice of Supplemental Facts Used By Well’s Fargo And U.S. Bank to deny
Cammie’s Motion to Reconsider Expert Witness Report
I. Lawyers Title Agency and their 3rd Party Investor F&F 3 L.L C. Using the
illegally Conducted foreclosure and cost associated with that Transaction
Used to steal Cammie’s Property and all the Equity she had in it for $16,000.
J. Michael Rivera Lawyers Title agent that Utilizes the Foreclosure to force
Cammie to sign over her Rights to her property to the 3rd Party Investor F&F
3 LLC. For Lawyers Title Agency for all the Agents working Cammie’s
Claim Susan Neff, John Gamm,

Ill

K. Kim Stembridge The Buyers agent for the Full Price offer Cammie Lost the
sale with explanation of Title issue and Who was responsible “Lawyers Title

Agency. Team AZ Real Estate Paulette Davis was Cammie’s seller’s agent
and the Purchase Contract for the Buyer.
L. Supreme Court State ofArizona May 10, 2021 Order Petition for Review
Denied Case No. CV-20-0303-PR Certified Copy
M. In the Arizona Court of Appeals Division one Case NO. 1 CA- CV 190600 filled 6-25-2020 Memorandum Decision Certified Copy.
N. In The Superior Court of the State ofArizona Maricopa In And For the
County OfMaricopa Case No CV2019-000496
O. In the Arizona Court ofAppeals Division One Case No 1 CA-CV-18-0542
Filled 11-5-2019 Memorandum
P. Superior Court OfArizona Maricopa County Case NO Cv2017-053676
Judges Orders Judgements and Opinions and Dismissals.

iv

TABLE OF AUTHORITIES

1. Section 10(b) ofthe Securities Exchange Act of1934 or see Rule 106-5 for Securities
Fraud
■P-15

Federal and Criminal Law are very Relevant in this case

2. Fight Fraud Act of2009 (H.R.1748) “Financial Institution Definition to cover Private
.p.20
3. Fraud Enforcement and Recovery Act of2009 (s386)

.p. 20

4. Securities Fraud (statue) Section 10(b)of the Securities Exchange Act of1934 Or see
.p.20

Rule 106-5 for Securities Fraud.

5. See also Robert E. Dordan, Mortgage Electronic Systems inc. (MERS) it’s Recent
Battles ad chance for a peaceful existence, 12(04. J Pub. Int. L. 177,180-81 (2010)
“he was sentenced to a total of 252 Months imprisonment followed by a total of five years
supervised Release (3:02-Cr-156 (Cr) Doc NO 1117

.p.23

6. The Constitution State only one Command twice
The Fifth Amendment say’s to the Federal Government that
“No One Shall Be “Deprived ofLife, Liberty or Property without Due Process of the
Law.

.p.25

The Fourteenth Amendment Ratified in 1868, Uses the same ELEVEN Words, Called
Due Process Clause, to describe legal obligations of all States. These words have as
their Central Promise an assurance that all Levels ofAmerican Government Must
operate within the law ('legality”) and Provide fair Procedures.

.p.26

The Law Promises that before depriving a Citizen ofLife, Liberty, or Property, thus, it
is not always enough for the Governmentjust to act in accordance with whatever law
there may happen to be.
Citizens may also be entitled to have the Government observe offerfir Procedures,
whether or not those have been providedfor in the Law on the basis of which it is
ACTING.

.p.26

Action Denying the Process that is “DUE” would be Unconstitutional.
A Violation of Cammie’s Right to Property. And “Due Process of the LA W”.

,p.26

7. Cervants V. Countrywide Home Loans Inc. 656 F. 3d, 1034,1039 (9th Cir2011)....p.23
8. Hogan 230 Ariz., at 58710, 277 P.3d at 784; Silving, 800 F. Supp. 2d at 1067-68
One of the primary purpose served by DEED OF TRUST is that it permits a NON-Judicial
Foreclosure sale. Nothing More. Hogan 230 Ariz., 585,5,277p.3d at 782

.p.22

9. Jackson V. Mortgage Electronic Registrations Systems inc. 770 N. W. 2d 487,490 (S.
Ct. MINN. 2009)

.p.23

10. See also Robert E. Dordan, Mortgage Electronic Systems inc. (MERS) it’s Recent
Battles ad chance for a peaceful existence, 12(04. J Pub. Int. L. 177,180-81 (2010)
“he was sentenced to a total of 252 Months imprisonment followed by a total of five years
supervised Release (3:02-0-156 (O) Doc NO 1117

.p.23

11. Silvering V. Wells Fargo Bank NA., 800 F. Supp 2d, 1055,1063 (o AIR,2011).......p.22

12. United States V. Austin (1992) U.S. App (lOthCir) (NOS 92-1046,92-1047) Mail
Fraud, Wire Fraud, Making false Statements Fraud and Strawmen

.p.23

13. United States V. Bryson, 2004 U.S. App Lexis 9677 (7th Cir) This case large a Complex
Used inflated appraisals andfalsified income obtain loans on residence in excess of
the true value, obtaining and misleading documentation
14. United States V. Hachel 227F. 3d 857,858 (9Th Cir 2000)

.p.24
.p.24

Obtained Mortgages, inflated Mortgage based on False Appraisals for Cash Back Loans.
15. United State v. Jaffe (2007), 387 F. 3d 677 (7th Cir. 2004)
16. United States V. Lefkowitz, 125 F 3d. 608 (8,h Cir 1997)...

.p.24
.p.22

17. United State v. Mclean, 131 Fed. Appx 34 (4th Cir 2005) In Mclean, the defendant was
charged on 66 counts, one of which was “making and passingfalse mortgage notes to
influence HUD in violation of 18 U.S.C 1010” mclean at *8

.p.23

18. United State v. walsh, 75 F. 3d 1 (1st Cir 1996) The defendants andfour co-defendants
were charged with conspiracy, twenty-nine counts of bankfraud, and twenty-nine counts
of making false statements. Walsh at 3. “The substance of the indictment was that [the
defendant] carried out a scheme to defraud dime savings bank ofNew York by directing
his employees to obtain 29 specific loans through use of deception.

.p.24

19.15 U.S.C 78o(d) Shall be fined under this title, or imprisoned not more then 25 years
or both. Added Pub. L. 107-204,title VIII,807 (a) July 30,2002,116 stat. 804; amended

Pub L. 11U212 (e) (I) May 20,2009123 Stat 1618

,pJl

20.18 U.S.C Subsection (a) The term Continuing acting in concert financial crimes
enterprise means a series of violations under section
215,656,657,1005,1006,1007,1014,1032,1344

.p.25

21. Who Ever Knowingly Executes, or attempts to execute a scheme ofArtifice22. To obtain, by means of False or Fraudulent pretenses, or promise, any money or
Property in connection with the purchase or sale of any commodity forfuture delivery,
or any Security of an issuer Under section 12 ofthe Securities Exchange Act of
1934

,p.21

Mortgage Fraud Prosecuted under
23.18 U.S.C. (continuing Financial Crimes Enterprise)

.p.21

24.18 U.S.C. 225 (2007) The Crime

.p.21

25. It’s a Crime under section 225for reason to organize, manage, supervise a continuing
financial Crimes Enterprise during any 24 month period 18. U.S.C. 225 (a)

.p.21

26. For this section to the purpose ofsubsection (a) the term aContinuingfinancial Crime
Enterprise” means a series of violation under Section 215,656, 657,
1005,1006,1007,1014,1032 or 1344 ofthis title Effecting a Financial institution,
committed by at least 4, person acting in concert 18 U.S.C 225 (b)

.p.21-22

27.10 U.S.C. 225 This title affects a Financial Institution, committed by at least 4

persons continuing acting in concert

,p,25

.p.22

28.18 U.S.C. 1001 False Statements

29. Mortgage Fraud Prosecuted under 18 U.S.C 1006 (2007) Credit Institute Fraud.
See also Elizabeth Renuart, Property title trouble in Non Judicial Foreclosure State;
The Ibanez Time Bomb? 4WM, Mary, Rev, 111,182-131(2013) Kurt,Eggert, The
Greater Collapse; How Securitization caused the Subprime meltdown, 41 Conn.L Rev
1257,1266 (2009) The Deed Of Trust is Not the Note MERS does not Hold the NOTE
or the DEBT.

.p.22

30. Mortgage Lending Business (33) Federal Mail and Wire Fraud Statues 18 U.S.C 1343
White Collar crime (39)
31.18 U.S.C 1344 (2007)Bank Fraud
32. Criminal Liability Statue 18. U.S.C. 1344
33. Prosecuted Under 18 U.S.C. 1344 (2007) (Bank Fraud)

.p. 20
.p.21
.p.20
.p.24

34.18 U.S.C. 1344 Aimed at Schemes to Defraudfederally chartered or insured Financial
Institution to obtain Property

.p.25

35. (FFP) Fraudfor Profit
“Industry Insider Fraud, ”( Fraud For Profit)
Motive “Revolve Equity Falsely Inflate the Value of the Property

.p.25

36. Fraud Black’s Law- Dictionary 685 (8th ed. 2005) Is defined as a “Knowing
Misrepresentation of the Material to induce another to act to his detriment”. The
Defendants in this case are Guilty of (FFP) and (FFH)

“Fraudfor Profit, ” And “Fraud For Housing)

.p.25

37.18 U.S.C. 1348- Securities Fraud.

.p.21

38.18. U.S. C1348 Securities and Commodities Fraud.

,p.21

39.18 V.S.C 1956 and 1957 (2007) Money Laundering

.p.21

40.18 U.S.C. 2314 -Interstate Transfer of Funds

.p.21

IN THE
i

SUPREME COURT OF THE UNITED STATES

)

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to' review the judgment below.
OPINIONS BELOW
i

i
i
;

;

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

!

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:

i

i
f

The opinion of the highest state court to review the merits appears at
Appendix -Al__to the petition and is
\A reported at /VpperAtx A
; or,
[ 3 has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
The opinion of the
court
appears at Appendix fr^f3 to the petition and is
[</freported at
M/ N], Qj P( Q-p-fki Appgyiti/JC
J or,
[ 3 has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
1.

to

to

r
t

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:_________ _
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including (date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix _A__.

10,3Ca?l

[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. §1257(a);

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Federal and Criminal Law are very Relevant in this case. Securities FRAUD
Fight Fraud Act of2009 (H.R.1748) "Financial Imtitution Definition to cover Private
Mortgage Lending Business (33)
Federal Mail and Wire Fraud Statues 18 U.S.C 1343 White Collar crime (39)
Fraud Enforcement and Recovery Act of2009 (s386)
Criminal Liability Statue 18.U.S.C. 1344
Securities Fraud (statue) Section 10(b)ofthe Securities Exchange Act of

1934 Or see

Rule 106-5 for Securities Fraud'.
18 U.S.C. 1348- Securities Fraud
18 U.S.C. 2314 - Interstate Transfer of Funds
18 U.S.C 1956 and 1957 (2007) Money Laundering
18 U.S.C 1344 (2007)Bank Fraud
18. U.S.C 1348 Securities and Commodities Fraud
Who Ever Knowingly Executes, or attempts to execute a scheme ofArtifice1. To obtain, by means ofFalse or Fraudulent pretenses, or promise, any mmoney or Property in
connection with the purchase or sale ofany commodity for future delivery, or any Security of

an issuer Under section 12 of the Securities Exchange Act of193415 U.S.C 78o(d) Shall be
fined under this title, or imprisoned not more then 25 years or both.
Added Pub. L. 107-204,title VIII,807 (a) July 30,2002,116 stat 804; amended Pub L. 111-21 2
(e) (I) May 20,2009 123 Stat 1618
Mortgage Fraud Prosecuted under
18 U.S.C. (continuing Financial Crimes Enterprise)
18 U.S.C. 225 (2007) The Crime
It’s a Crime under section 225for reason to organize, manage, supervise a continuing
financial Crimes Enterprise during any 24 month period 18.U.S.C. 225 (a)
For this section to the purpose ofsubsection (a) the tern “Continuing financial Crime
Enterprise” means a series of violation under Section 215,656, 657,1005,1006,1007,1014,
1032 or 1344 of this title Effecting a Financial institution, committed by at least 4, person
acting in concert 18 U.S.C225 (b)
18 U.S.C. 1001 False Statements
Mortgage Fraud Prosecuted under
18 U.S.C 1006 (2007) Credit Institute Fraud
18 U.S.C. 1344 Aimed at Schemes to Defraud federally chartered or insured Financial
Institution to obtain Property
(FFP) Fraudfor Profit
“Industry Insider Fraud, ”( Fraud For Profit)
Motive “Revolve Equity Falsely Inflate the Value of the Property.

Fraud Black’s Law- Dictionary 685 (8th ed. 2005) Is defined as a “Knowing Misrepresentation
ofthe Material to induce another to act to his detriment”.
The Defendants in this case are Guilty of (FFP) and (FFH)
“Fraudfor Profit ” And “Fraud For Housing)
10 U.S.C. 225 This title affects a Financial Institution, committed by at least 4 persons
continuing acting in concert
18 US.C Subsection (a) The term Continuing acting in concert financial crimes enterprise
means a series of violations under section 215,656,657,1005,1006,1007,1014,1032,1344

The Constitution State only one Command twice
The Fifth Amendment say’s to the Federal Government that
“No One Shall Be “Deprived of Life, Liberty or Property without Due Process of the Law.
The Fourteenth Amendment Ratified in 1868, Uses the same ELEVEN Words, Called Due
Process Clause, to describe legal obligations of all States. These words have as their Central
Promise an assurance that all Levels ofAmerican Government Must operate within the law
(‘Legality”) and Provide fair Procedures.

The Law Promises that before depriving a Citizen ofLife, Liberty, or Property, thus, it is not
always enough for the Governmentjust to act in accordance with whatever law there may
happen to be.
Citizens may also be entitled to have the Government observe offerfir Procedures, whether or
not those have been providedfor in the Law on the basis of which it is ACTING.

Action Denying the Process that is “DUE” would be Unconstitutional
The 14th Amendment States “Nor Shall any State deprive and person ofLife, Liberty, or
Property without Due process of the law; nor deny any person within its jurisdiction the equal
Protection of the Laws.
The 5th Amendment of the United States Constitution includes a Provision known as the
TAKING CLA USE, which States that “Private Property [Shall Not be taken for public use,
without just compensation. While the Fifth Amendment by itselfonly applies to actions by the
federal Government-, the 14th Amendment extends the takings Clause to actions by State and
Local Government as well.
The U.S. Supreme Court Extends time to file Federal Securities Exchange Fraud April
29,2010 In action under Section 10 (b) ofthe Securities Exchange Act 1934 Statue of
Limitation does not begin to run until plaintiffs have discovered or reasonably could have
discoveredfacts constituting Fraud, including Scienter.
On April 27,2010 the United States Supreme Court held that the Statue ofLimitations for
Private actions claiming Securities Fraud under section 10 (b) ofthe Securities Exchange Act
of1934 does not begin to run till plaintiffs have discovered or, with reasonable diligence,
could have discovered the facts constituting the fraud including scienter.
Rule (10b-5 promulgated thereunder)must be brought “not later than earlier of (1) 2 years
after such violation “28. U.S. C1658 every court of appeals to have addressed this provision
had held that “discovery” means both constructive and actual discovery, and that constructive
discovery turns at least in part on when the Plaintiffin on “inquiry notice” of the alleged

fraud

1

Statement of the Case
In May 2017 Cammie Lost the Sale of her Property due to Unknown Title Issues. Cammie had a
Full Price Offer of a Guaranteed VA Loan.
By June 20th 2017 There was an illegal assignment conducted and Cammie Caught it.
By July according to the Docket Case No. CV2017-053676 Docket Date 7/27/2017
Cammie Filled a Lawsuit Cammie Marceaux v. Steven Baker, et al.,
What was before the Court was a Quiet Title Action and a Breach of Contract Unenforceable
Cammie Sued
Steven Baker, Kenneth Short, Centry 21 Northwest, Suburban Mortgage Corporation, Myriam
Silvers, Fidelity National Title, Wells Fargo, U.S. Bank, MERS, J.N. Phillips. Daniel R.
Sanders.
a Motion to Stay On Wells Fargo and U.S.Bank N.A. Fidelity National Title for damages.
Docketed Order 10/18/2017
Docketed Order 10/18/2017
Docketed Order 10/19/2017
Docketed Ruling 2/13/2017
Docket 4/6/2018 Notice ofSupplement Facts For Which This Court May Take Judicial Notice
Supporting Response to Plaintiffs Motion to Reconsider.
Docketed Motion to Reconsider 4/17/2018
Docketed 5/18/2018 Motion to Strike Portions Of the plaintiffs Motion to reconsider &Expert
witness Report Pursuant to Rule 12 (F), Arizona Rules of Civil Procedure.
Docketed
Docketed Judgement 5/25/2018
Docketed Judgement 5/25/2018
Docketed Judgement 5/25/2018
Docketed Judgement 5/25/2018
Docketed Order 5/25/2018
Docketed Ruling 5/30/2018
Docket 5/30/2018 Case Dismissed Partial

2

Docketed 5/30/2018 Case Dismissed Partial
Docketed 6/7/2018 Order
Docketed 7/23/2018 Order
Docketed Notice ofAppeal timely filled 7/23/2018 By Commie
Docketed 6/10/2019 Memorandum Decision Division One Court Of appeals.
Docketed 12/17/2019 Order ofMandate Placed on the Dismissal Calendar.

All Defendants were dismissed based on a Quit Claim Deed. Provided By Fidelity National Title
as they presented false evidence to a Trust Property that was a Extreme Liability to them.
Undisclosed Material Defecting the Title it has a Disease. Used the Foreclosure to force
Cammie To sign over rights to the Property then Used the Sale Documents to further dismiss
based on the Forced Sale.

This Property matter never had its day in Court. There was no trial no hearing and no evidence
or witnesses have been called.
The Breach of contract provision and the Quiet title action was never conducted.
As you will see in the Next case the Illegally Conducted Foreclosure that was taking Place why
U.S.Bank N.A. Had not been dismissed from the prior court and was already Conducting a
Foreclosure on Cammie. March 9, 2019

Cammie Marceaux v. Tiffany and Bosco P.A. et aL, Case No CV2019-000496 Negligence And
Fraud.
Docket 2/20/2019 Complaintfiled FRAUD (FFP) (FFP) Fraudfor profit andfraudfor
property. Illegally conducted Foreclosure based on a Trust owed Prior to Cammie Purchase in
2006 to 2017.

Docketed 4/3/2019 Notice Assignment to Commercial Court
Docket 4/24/2019 Ruling
Docketed 5/3/2019 Ruling
Docketed 6/4/2019 Oder Entered by Court
Docketed 7/22/2019 Ruling
Docketed 7/24/2019 Notice

3

Docketed 8/6/2019 Notice of appeal timely filled By Commie
Docketed 9/4/2019 Judgement
Docketed 9/4/2019 Judgement
Docketed 9/16/2019 Court of appeals Order
Docketed 9/25/2019 Notice case on Dismissal Calendar
Docketed 10/15/2019 Judgement
Docketed 10/7 Judgement signed
Docketed 3/5/2020 Memorandum Court ofAppeals
Docketed Judgements Filed 10/4/2019
Amount for:
Tiffany and Bosco
Wells Fargo Bank NA
US Bank N.A
Fidelity National Title Agency
Layers Title Agency
Docketed Judgement Filled 9/4/2019
Amountfor:
Tiffany and Bosco
Wells Fargo
U.S.Bank
Fidelity National Title
Lawyers Title Agency

Cammie Then Filled a Timely Appeal a Petition to Review to the Arizona Supreme Court and
Was again “Denied the Review”.

1
4

Under the Constitution of the United States, the Statutory Provisions of the LAWS and Rules of
the Court are believed to confer on this Court’s Jurisdiction that Protect Cammie’s Property where
them Rights to that Property have been infringed upon.
The Destruction Mortgage Fraud Has done on the family is the most devastating one family can
endure, and some did not even survive. I watched as families in my neighborhood lost their
property thrown on the sidewalks their homes their children taken from them, they committed
Suicide and familicide. Most of the Kids went Homeless and they lost touch with siblings going
into foster care programs. This Rocked our Entire Country. Threatens the integrity of our
Recordation System our Banking and the Rights to owning the property in which we pay for.
And then in 2017 when Cammie never thought in her life, she would be there VICTIM. Yet She
was and was Human Traffic for Daniel R. Sanders, Steven Baker, Myriam Silvers, And Kenneth
Short for the Next 17 years of Cammie’s Life she has had to fight for her property why they
continued to Victimize Cammie and Her Children and they Used her Property to do it and for all
them reason that is why Cammie is here begging for someone to listen to her fight for her Right
to get her property back. After they stole from Cammie for 17 years.
OUR AMERICAN DREAM!
Cammie was not sold a Property at all and for 13 years Cammie was sold an Air Loan. Cammie
was paying for nothing with a Promise that if she pays the Property in which she was paying for
would in fact be her Property. And it was not.
However, for 13 years then Lender and the Barrower were kept in the “DARK”. Thanks to
Wells Fargo they created these Shell Corporation which also Enabled the Financial Scheme to be
hidden and sold to the Public and not disclose the Lender and keep the Barrower hidden from

6

with cash back loans on the property the straw buyers and insurance FRAUD for PM1. They
placed this property into a TRUST commit Fraud on the U.S.Bank N.A Trust.
Steven Baker and Daniel R. Sanders have been working together with J.N Philips for years
on transaction for this property and many others. They sell the property to someone else to get
Daniel’s Mortgage on the Property paid off.
The Scheme does not stop there with these Bandits. By the Year 2006 the Property had been
Sold and resold and Foreclosed Upon and resold and a cash Back Loan was done by Steven
Baker at Countrywide Home loans two of them in total $229,000. This Cash Back Loan was
to inflate the Mortgage and Sell a Liability Property belonging to the Trust to Cammie in April 3,
2006. Cammie did not know the Property was in U.S.Bank N.A. trust till June 20, 2017. The
TRUST that the title was a Liability to Belonging to the Service provider of the Trust U.S.Bank
N.A.
Cammie was a Bonified buyer to the Property being sold advertised on MLS and placed
$57,000 Cash down in a wire Transfer to Suburban Mortgage Corporation and Closed with
The One and ONLY Myriam Silvers the Title Closing agent for Capital Title Agency.
The agent Never told Cammie at closing the Property was a Liability Property Owed eight
unpaid Securities to a trust Owned by U.S.Bank N.A. Prior to April 3, 2006. That had gone bad
before she bought it in 2006. Cammie was never told she was RENTING THE PROPERTY.
That she would never really own the Property and that is where it all began this Title Agent had
her chance to disclose but because she was friends with Kenneth Short and His wife on
Facebook she added and Abetted the sniester’s.

7

Kenneth Short, Steven Baker and Daniel R. Sanders. Myriam Silvers Suburban Mortgage
Corporation, They, conspired and they all fully Committed to take part in the Fraud that was
about to take place on Cammie and did so Willingly and for each other.

Kenneth Short told Cammie that he would have closed the transaction under his Broker license
but did not want to be the agent and the Broker. I believe Kenneth Short Knew he was
committing Mortgage Fraud and he wanted Centry 21 Northwest to Back him and insure him
rather then his Broker License be at stake. Kenneth Short Uses the Broker at Centry
21 Northwest Broker License Being at stake he wanted to take them down with him and they
participated and they backed him so they fully agreed to self-commit even themselves to Help
Steven Baker and Kenneth Short close his deal right before he was to go on his Honey moon
with his new wife. So, the Broker at Centry 21Northwest Aided and Abetted Kenneth Short
as the Broker for the Transaction of the Property being sold to Cammie. Through Agency
Liability Centry 21 Northwest Became a Liable Party to this Case being Presented for rieview
because they also Enabled Kenneth Short and Used there Good Name To DO IT. Making the
Bad situation Look even more legit.
Kenneth Short and Steven Baker Conspire with the Title Agent Myriam Silvers to Guarantee
the title through Capital Title Agency that is now out of business to issue title insurance. They
all Contacted Suburban Mortgage Corporation a small mom and pop Corporation operating out
of Phoenix AZ. That’s where the Fannie Mae and Freddie Mac Mortgage Note and Loan
Documents all came from was recorded with MERS data Base and the Mortgage Note stayed
with them and was serviced for Daniel R. Sanders and Steven Baker for 13 years. The
Documents were fake.

8

Cammie Never had a Loan and Cammie Never had a Lender.
Cammie was told she did. No one would provide Cammie with the appraisal of the property.
Cammie Asked if it appraised? Cammie was told it did, but no one would provide the appraisal
report. They j ust said Cammie got the LOAN .
The Title Agent Mariam Silvers, Suburban Mortgage Corporation Hiding the Liability Trust
Owed on the title on this property knowingly did so with knowledge of the Property being sold
belonging to a trust owed Eight other Liabilities were also being sold to Cammie.
Owner Agent Steven Baker advertised himself as the Owner of the Trust Property being sold on
MLS Advertised and shared to the Public as a Property that could in fact be BOUGHT and Sold.
Liabilities and a Trust Property not belonging to the People Selling the Property as if someone
could in fact take Owner ship of the Property in Which they cannot and do not produce a
property for profits made for 13 YEARS and came in and took the Property from Cammie
through Illegal actions and infringed upon the Rights of the Owner of the Property Illegally in
the taking of her Property based on the Facts of the Case the Property being Sold Belonged to the
Trust and the People selling the Property and making false statements to the Buyer Cammie
Marceaux was sold nothing more than an AIR Loan where the Lender and Barrower are hidden
from each other for 13 Years.
Then when the Cammie Tried to Sell the Property to save the life of her son from a Brain Injury
she could not.
Cammie could not convey a Proper Title to her Full PRICE Buyer.

9

The Trust came in exercised there rights based on a Mortgage Note that was assigned to the
Trust illegally 13 years later to foreclose on the Trust Property for Prior Unpaid Mortgage
Backed Securities that had gone Bad by the Very Investors that came in and took the Property
for their Debts to the Trust in which it was Owed.
However, the Mortgage note the Mortgage Company was servicing for the title Owner Daniel R
Sanders and his Broker Steven Baker. Having Suburban Mortgage Service nothing more than an
AIR Loan Hide the Lender Hide the Barrow Fraud the Trust and sell a Property to the PUBLIC
for extreme equitable funds and when they got caught the Owner of the Property Daniel R.
Sanders signs a Quit Claim Deed of his interest to the Property over to Cammie July 2017. This
Title Property now belonging to Cammie and was provided by Fidelity National Title Agency,
Daniel R. Sanders Signed over his rights to the Title to Cammie. Through a Quit Claim Deed.
However, the crime on Cammie’s Property does not stop there.
June 20,2017 Michelle Erin Whiner posing as an assistant secretary for (MERS inc.)
Mortgage Electronic Registrations Systems inc. Singed that she was the sectary for
(MERS inc.) on the ROBO Assignment of the Mortgage note Held by Daniel R. Sanders and
Suburban Mortgage over to Trustee on the U.S.Bank N.A Trust 13 years after the closing Date of
the Trust July 01, 2006. This Assignment into a Trust after the closing date of that Trust was
illegally conducted and they all Knew they were Committing Mortgage Fraud.
The Employee Michell Erin Whiner of Wells Fargo as we can see in the Appendix to the Writ.
“The Expert Witness Report” Evidence shows the Assigner was also the Assignee Wells
Fargo Employee advertised herself on Linkedln working for Wells Fargo as a Bankruptcy 11
Specialist. The assignee cannot be the assigner that is illegal and was a fraudulent Recording at

10
the Recorders at the Maricopa County Recorders Office on June 20, 2017 this was FRAUD and
is a Class 3 Felony and Punishable under the Law that a Person cannot file a fictitious document
and record it knowingly to be a false document to be recoded and she signed as the Secretary for
MERS inc. Clearly an Employee of Wells Fargo.
Cammie Knew the assignment taking place was an illegal assignment and did not understand
why it was taking place on June 20,2017. Cammie was not in Default on her Mortgage Account
that was being Serviced by Well’s Fargo. It was an account nothing more than an Account you
Cannot Assign an Account to a Trustee. Assigning the Note 13 years Latter Would be Illegal
and VOIDED.
Cammie Lost the Full Price offer on her Sale to a Full Price Buyer on May 13, 2017 a Month
Prior to this Assignment. Cammie WAS set up.
Cammie had a Full Price Offer on her property a VA loan guarantee funds for the purchase of
her Property.
This Property Cammie Owned Cammie was paying for was Purchased in 2006
The address of the Property 14923 W. Eveningstar TR1. Surprise AZ 85374.
Cammie Placed $57,000 cash in a Wire Transfer to Suburban Mortgage on the behalf of the
Purchase of this Property. Where them funds went, we have no clue because they did not go to
the U.S.Bank N.A. Trust Bank that was owed the Liabilities on the Property Trust. The Bank
was Frauded for 13 years why the Agent Owner Steven Baker, Title Owner Daniel R. Sanders
remained on title collected Money for 13 years for a mortgage note with Ann Rate interest loan
an Air Loan in which no property was connected to.

11

The Mortgage note was held and Being Service by Suburban Mortgage Corporation, a small
mom and pop Corporation Operating out of Phoenix AZ. The Mortgage Corporation in 13 years
never Deposited the Note in the Trust Prior to June 20, 2017. Then had the Assignment Robo
Assigned to the Bank 13 years later when Cammie Caught them when she could not convey a
rightful title to her BUYER for the Full Price Offer.

This Practice on a Trust Property with Liabilities Owed and sold to a Person with a Promise to
convey such Property after payment of that Property was illegally being sold to the PUBLIC
advertised on MLS as a Property would be conveyed with proper payment of that property. In
which it could not be sold to the Public for money with the intention and the actions of a
Bonified BUYER of the Property belonging to the trust in which was Owed Eight Unpaid
Liabilities that had gone bad on the Property Title. Where the actual title was being held and a
title to the Buyer could never be conveyed due to the Prior Liabilities that is owed without a
Quiet title action from a Court of Law.
This Trust Property Owned By Daniel R. Sanders who Held Title to the Property on Title had a
Liability Property in which he was selling to the Public knowing he had no rights to the title
without the proper payment of the Liabilities owed on that Trust Property that had been
conducted Prior to Cammie’s Purchase in 2006 that had been illegally conducted on the Trust
Property by the Investment Group that should have never been created.
Using Straw Buyer to pay off the title then placed in the trust to be sold over and over again
where they were getting PMI and falsifying documents to lenders and banks getting Cash Back
Loans to Inflate the Mortgage False appraisals I mean they did it all to Cammie.

12
Aiding and abetting each other is a Criminal Scheme to make money illegally and lots of it for a
very long time. Cammie found that at one time the Property being sold and recorded the sale
within 17 days of each other and the same mortgage company and title company insured the
loans to the banks knowingly within 17 days of each other for the same exact amounts.
This investment Group and the Trust Property was such a Liability to the owner that he
committed an Act of Fraud in Selling the Property to the PUBLIC over and over and has gotten
away with it way to long.
Taking money with the Promise the property did in fact not belong to him. The liabilities
Property he was holding title to belonged to the Bank TRUST. Cammie was sold a Property she
would never gain Title to for 13 years she thought she was paying for taking care of making
extreme Improvements to including putting in a $38,000 pool in which she paid off in 2015.
$38,000 pools do not get put in at RENTAL PROPERTIES.
When Cammie Lost her sale to a foil price offer a guaranteed VA loan. Cammie Filed a Title
policy Claim with Capital Title Agency they were the insurer for Cammie Title By the Agent
Myriam Silvers. What is Odd the Title Company that stated to Cammie May 13, 2017 that told
Cammie that Cammie needed to deal with a Susan Neff at the legal Department for Lawyers
Title and then Cammie was sent to John Gamm to handle the claim at Fidelity National Title
Agency. Fidelity National Title and Lawyers Title Agency handling the claim together sleeping
in the same bed conspire and continue to make Cammie believe in “false Statements.” Cammie
Even Filled a Consumer Complaints Complaint and Fidelity National title Filled “False
Statements” to the Consumer Complaints Department Agency as well. Fidelity National Title

13

Claimed the “Quit Claim Deed”, Released Full Title of the Property being sold to Cammie by
Daniel R. Sanders the TITLE OWNER.
Hiding the Trust property, Hiding the Eight Unpaid Securities owed and gets the Title Owner
Daniel R. Sanders to sign over a Quit claim Deed of his interest in the Property This Quit Claim
Deed filled in the Court of LAW Closes Cammie’s Claim stated the Title was Clear. Susan Neff
and John Gamm made “false statement” to Cammie and hid the Liabilities owed on the title held
by the Trust to avoid having to pay them.
The Crime does not stop there.
They began working together to solve the Cammie Claim. Clear the title so she could convey the
Property for the Full price offer she had due to close May 30,2017.
Cammie Lost her sale.
The title agencies lied to Cammie About the Trust Property in the trust and the Prior Liabilities
owed on that trust in which they did not want to pay to clear the title for Cammie to convey for
the full price offer instead they all worked together to hide the Liabilities and offered a Quit
claim deed from the title Owner Daniel R. Sanders and Presented it in Court to Show Honorable
Judge Hannah Jr.
That a Quit Claim Deed release of the Title was evidence to dismiss them and all the defendants
in the case of all actions Cammie Believed, they took in this case presented for this court to
decide upon in this Property matter.
The “Trust” Being Owed the Liabilities was Never Disclosed to Cammie Even in a Court of Law
they provided False Information to get all Defendants dismissed Knowing the Document had no

14
weight at all due to the Facts the U.S.Bank N.A. Trust was still Owed Eight unpaid Liabilities.
All Defendants Were dismissed based on one Quit Claim Deed, on a Trust Property where the
REAL Title was Held as a Liability to that Trust and Covered up by Lawyers Title Agency
Susan Neff and John Gamm at Fidelity National Title Agency that handles the Claim for
Cammie.
They aided and abetted each other to then come in and use them same Liabilities Owed Prior on
the Trust to come after Cammie for the Property in which they just told a Judge Cammie had the
Rights to full Title of the Property from the Original Title Owner. Daniel R. Sanders.

So, they

would not have to pay the 8 Liabilities Owed on the TRUST to Clear the REAL ISSUE.
They made “false statements” to a COURT and “Presented false documentation to do so”
and got all the Defendants and criminals in this case dismissed based on a QUIT CLAIM DEED.
The Quit Claim Deed From Daniel R. Sanders was presented as evidence by Fidelity National
Title agency Atomey “Jamie Thompson” Represenative from Fidelity National Law Firm.
Also the same Representative for Fidelity National Title and Lawyers Title agencies and Myriam
Silvers the Title Agent.
They told the Court that the Title belonging to Daniel R. Sanders and the rights he had was then
conveyed to Cammie In July 2017 through this so - called Quit Claim Deed. I mean after All
Cammie Did give Daniel R. Sanders, Suburban Mortgage Corporation and Steven Baker their
agent Way over the amount she should have in the 13 year and adding a $38,000 pool Cammie
maintained everything that had to do with the Property including paying for it for the 13 years.
Cammie Never missed a Payment and Paid off the Pool for the $38,000 in 2015.

15

Cammie wanted to refinance the Property and place another $50,000 down on the property to get
it to where she could be comfortable in a small payment and stop working so much away from
her children. But again, Ince they Violate
Section 10(b) of the Securities Exchange Act of1934 or see Rule 106-5for Securities Fraud
Cammie was sold a Property she could never own and they were going to cripple her and make
sure she never owned this property.

Cammie Could not get a hold of a Lender. The Shell Corporations Wells Fargo was hiding kept
Cammie in the “DARK” for Thirteen Years. Cammie Could not Refinance with any Bank’s
Because Cammie Could not locate who Cammie’s Lender was tis a Matter of Fact Cammie
never Had a Lender so Cammie could not contact one.
When Daniel R. Sanders signed over that Title to Cammie, Cammie was the rightful owner of
that Title and she overly paid for it at least a Half Million in 13 years for a property only worth
$120,000 sold to her at the inflated rate of $229,000 in 2006 that she could not sell in 2017 and
convey a title to her interest in the Property for $205,000 marketed $25,000 below what she
could have asked, for a quick sale to save the life of her child. That Lawyers Title 3rd Party
Investor, F&F 3 LLC. Forced Cammie to Sell to them for $177,000.00 Writing Cammie a
Check for $16,000.00 after she placed $57,000 cash Down and paid off a $38,000.00 Pool. Paid
for the Property 13 years and could not get a hold of a Lender or Investor?
The Crime’s these Investors did,
Does not stop there they wanted this Property back knowing it was a Trust Property and the
Trust wanted the Property back based on what the Trust was Owed Prior to the Purchase that
Cammie had made for the property in April 2006. So, they constructed and conspired with each
other and continued to violate Cammie’s rights to Owning this Property by the use of Force.

16

Cammie Knew she never had a Lender the Lender and the barrower were kept in the “Dark” by
Suburban Mortgage Corporation holding the Note belonging to the Trust in which it was not
deposited into that Trust in thirteen Years, They collected and used Wells Fargo as if the
Servicing agencies where the “Mortgage Lenders” and selling the note. They were not
Cammie’s Lenders Like Honorable John R. Hannah Jr. Had stated. They were servicing an
account nothing more.
The First SHELL CORPORATION USED stated Mortgage Select Portfolio Inc. Then a few
months later again another Shell Corporation acting as if they Bought the Note Stated Mortgage
America Servicing Company, another Shell Corporation for Wells Fargo for investors to have
accounts serviced AIR LOANS a kind service provided by Wells Fargo disclosing the fact’s not
prior to 2011 that they were in FACT the OWNER OF the Shell Corporation. . They were
servicing the Account for Suburban Mortgage and Laundering money away from the Trust and
back to the title Owner and his Agent adding and abetting the fraud Scheme to transact and the
Mortgage Corporation was committing bank fraud by collecting money on a trust Property with a
Mortgage note that no property being sold was attached to. Illegally. And having the account
serviced by the shell Corporation belonging to Well’s Fargo and nothing more than a service
provided by Wells Fargo and in doing so they aided and abetted the crime to continue and
transact with Suburban Mortgage and continued to Act Illegally. Because when they commit to
this kind of Property crime, they must all commit and do their part or (FFP and FFH)Fraud For
Profit and Fraud For Housing cannot be conducted.
They Falsely recorded and Acted for the Mortgage Corporation and Deposited a Note illegally
and continued to act on the illegally assigned Mortgage note being deposited 13 years later into a

17
Trust over to U.S. Bank and then Wells Fargo again Handling the Trust for U.S. Bank again then
Assigns the illegally assigned Mortgage note over to the Trustee to Use to Foreclose on Cammie.
The Final Scheme by all the little Sniesters that got caught is to force Cammie to Sign Over the
rights to her Property based on their power to Ruin Cammie’s Credit Profile with a Illegally
Conducted Foreclosure based on this Trust Owned Prior to Cammie’s Purchase with an Illegally
assignment knowingly in this Trust that was Closed 13 years Prior and was a Obvious Violation
of the Pooling and Servicing agreement on Trust Property.
Now we have Lenard J McDonald jr. a Trustee using his Power as an atorney and backed by this
Huge Law Firm Tiffany and Bosco threatens Cammie with the foreclosure on the Trust being
Owed the Eight Prior Securities owed on the Trust Property Knowing the Note he had on
Cammie was an Illegal Assignment and he acted anyway.
The Power this Foreclosure Trustee Had over Cammie Forces Cammie to Sign over her property
to the 3rd party investor F&F3 LLC. That was provided by Michael Rivera working for
Lawyers title Agency for $16,000 illegally Cammie was charged legal fees and Foreclosure
fees associated with all this. THEY stole Cammie’s Property by force and took all her Equity
she had in the property.
Fidelity National Title agency then working with Lawyers title agency began having their
agent Michael Rivera contact Cammie by phone then text and email. He stated there was a
foreclosure recorded on her property by the Trustee from US. Bank
Lenard J. Me Donald Jr at Tiffany and Bosco Law firm in Phoenix AZ. He recorded a
Foreclosure at the Maricopa County recorders Office to Foreclose and Sell Cammie’s Property

18
Illegally.Knowingly he had an illegally Assignment of the Note into the Trust Property and did
so Neglectfully,
Through an unauthorized illegal transfer on the Note going into the Trust knowingly thirteen
years later after the closing date of the Trust July 31, 2006 the note must be deposited before the
closing date and it was not. This was a clear violation against the pooling and Servicing
agreement based on the Trust in which the Mortgage note was deposited into 13 years later
would be Voided Document and the Trustee had no Right to Foreclose on Cammie Based on a
Trust that was Prior Owed to her Purchase in 2006 and the Note in Which The attorney
negligently acted upon and infringed in the Rights of Cammie and Forced her to sell
her Property to the only 3rd Party investor FF3. LLC for $16,000. And they even Charged
Cammie Foreclosure fees and legal fees relating to the Trustee fees.
Michael Rivera from Lawyers title told Cammie she cannot sell it to any other buyer and she can
not get a Title policy from any other Title issuer and that if she did not sell to the third party
investor F&F 3 LLC.
That was offered by Lawyers Title Agency That Cammie would then have to face foreclosure
and even more fees that go with a foreclose and have it on her Credit Profile.
Cammie had no choice but to sign over her rights to her property for $16,000.00 Cammie was
not going to have a Foreclosure on her Credit Profile just because the Crooks thought they could
Bully Cammie and think they were just going to get away with it. Cammie Knew what they
were doing and the Powers they were using to do it. That had been provided to them and
protected by the State of AZ in doing so in a Non Judicial Foreclosure STATE, as we can see
here through out these proceedings prior to this U.S. Supreme Court no Court has allowed

19
Cammie “DUE”, Process to be herd in a court of law in a jury and or a trial where evidence
could be produced and witnesses be called.

This was a Constructed Financial Crime and without all the Key Players involved and the
abilities they have acted in conjunction to hide and aided and Abetted each other and
encouraged the same from each other to act in such a way to enable them. They have been able
to utilize them powers and Fraud the Public, the Government and the Banks and get away with it
far to long.
As to when they are caught they need to be Punished to the Limits of the Law and The Public has
an Interest to Know that this kind of Crime and the Use of a Property to conduct such a Crime
and then Used to Seize property from a Owner in the United States can and will have extreme
Punishment for it is our American Dream and the Right to live free and peaceful in our property
in which we OWN. The ones directly involved committing and act aiding and abetting and
encouraging the same knowingly that Act in which they are aiding abetting the same to Act to
enable the other Knowingly that without them Acting for them they could not continue to Act so
therefore we have to ASSUME they all acted in Conjunction Aided and Abetted each other or
the other could in FACT not act at all.
Their all Guilty of Constructed Fraud. Conspiracy to commit fraud wire transfer fraud HUD
document Fraud, Bank Fraud, Conjunction to enable and abetted each other and conspired and
encouraged to act in conjunction or they could not have committed the actions they committed at
all. They all conspired and they all fully committed and when they committed they fully
committed with each other.

20

The Cases I am Presenting as similar to the one you are about to investigate will be a great
compari son to what we have in front of the U.S. Supreme Court today and what has Taken Place
with the said Defendants and or Employees of the Defendants in which they are being held
accountable for the ACTORS. By Cammie Marceaux That in Fact the Crimes were committed
against.

The Cases Presented and Ruled upon Prior by the U.S. Supreme Court that this case has the same
Symptoms as the diseased property and all the Provisions and Statues of the Laws and the types
of crimes committed that apply in this case is as follows.

Federal and Criminal Law are very Relevant in this case.
Fight Fraud Act of2009 (H.R.l 748) “Financial Institution Definition to cover Private
Mortgage Lending Business (33)

Federal Mail and Wire Fraud Statues 18 U.S.C 1343 White Colter crime (39)
Fraud Enforcement and Recovery Act of2009 (s386)
Criminal Liability Statue 18. U.S.C. 1344
Securities Fraud (statue) Section 10(b)ofthe Securities Exchange Act of
Rule 106-5 for Securities Fraud.

1934 Or see

21

18 U.S.C. 1348- Securities Fraud
18 U.S.C. 2314 - Interstate Transfer of Funds
18 U.S.C 1956 and 1957 (2007) Money Laundering
18 U.S.C 1344 (2007)Bank Fraud
18. U.S.C 1348 Securities and Commodities Fraud
Who Ever Knowingly Executes, or attempts to execute a scheme ofArtifice1. To obtain, by means ofFalse or Fraudulent pretenses, or promise, any mmoney or Property in
connection with the purchase or sale ofany commodity forfuture delivery, or any Security of
an issuer Under section 12 of the Securities Exchange Act of193415 U.S.C 78o(d) Shall be
fined under this title, or imprisoned not more then 25 years or both.
Added Pub. L. 107-204,title VIII,807 (a) July 30,2002,116 stat. 804; amended Pub L. 111-212
(e) (I) May 20, 2009123 Stat 1618

Mortgage Fraud Prosecuted under
18 U.S.C. (continuing Financial Crimes Enterprise)
18 U.S.C. 225 (2007) The Crime
It’s a Crime under section 225for reason to organize, manage, supervise a continuing
financial Crimes Enterprise during any 24 month period 18.U.S.C. 225 (a)

For this section to the purpose ofsubsection (a) the term “Continuingfinancial Crime
Enterprise” means a series of violation under Section 215,656, 657,1005,1006,1007,1014,

22

1032 or 1344 of this title Effecting a Financial institution, committed by at least 4, person
acting in concert 18 U.S.C 225 (b)

United States V. Lefkowitz, 125 F 3d. 608 (8th Cir 1997)
18 U.S.C. 1001 False Statements

Mortgage Fraud Prosecuted nder 18 U.S.C 1006 (2007) Credit Institute Fraud.
See also Elizabeth Renuart, Property title trouble in Non Judicial Foreclosure State; The
Ibanez Time Bomb? 4WM, Mary, Rev, 111,182-131(2013) Kurt,Eggert, The Greater Collapse;
How Securitization caused the Subprime meltdown, 41 Conn.L Rev 1257,1266 (2009) The
Deed Of Trust is Not the Note MERS does not Hold the NOTE or the DEBT.

Silvering V. Wells Fargo Bank NA., 800 F. Supp 2d, 1055,1063 (o AIR,2011
The Original Promissory note was never deposited into the trust. They Birficated and the Deed of
trust and executed on April 3,2006 a distinct Instrument that served a different purpose then a
Beneficary Assignment that took place here on Cammie’s Property June 20,2017 That was done
to conduct a Foreclosure.
Hogan 230 Ariz,, at 58710, 277P.3d at 784; Silving, 800 F. Supp. 2d at 1067-68
One of the primary purpose served by DEED OF TRUST is that it permits a NON-Judicial
Foreclosure sale. Nothing More. Hogan 230 Ariz., 585,5,277p.3d at 782
In 2005 Steven Baker the Owner Agent stated He bought the Property for 182,000 and even got
a second Mortgage to fix it up $22,000 Inflating the Mortgage with nothing more then a CASH
Back loan He then Sells the Property to Cammie with the Inflated amounts of his Loan he knew

23

The title agent Knew the Mortgage Corporation knew and Even Cammie’s Relator knew Steven
Baker took out a Cash Back Loan from Countrywide none of them had any intentions of paying
back only to take from Cammie yet another Wire Transfer of $57,000. To be distributed amongst
them for doing what they were about to commit to do to Cammie for the Next 15 years.
However, Cammie Believes this was again Just a Cash Back Scheme to Rob the Bank of even
more money.
No One paid Countrywide Bank Back, and they fell beyond existence.

Cervants V. Countrywide Home Loans Inc. 656 F. 3d, 1034,1039 (9th Cir2011)

Jackson V. Mortgage Electronic Registrations Systems inc. 770 N. W. 2d 487,490 (S. Ct.
MINN. 2009)
See also Robert E. Dordan, Mortgage Electronic Systems inc. (MERS) it’s Recent Battles ad
chance for a peaceful existence, 12(04. J Pub. Ini. L. 177,180-81 (2010)
“he was sentenced to a total of 252 Months imprisonment followed by a total of five years
supervised Release (3:02-Cr-156 (Cr) Doc NO 1117

United State v. Mclean, 131 Fed. Appx 34 (4th Cir 2005) In Mclean, the defendant was
charged on 66 counts, one of which was “making and passingfalse mortgage notes to
influence HUD in violation of 18 U.S.C 1010” mclean at *8

United States V. Austin (1992) U.S. App (lOthCir) (NOS 92-1046,92-1047) Mail Fraud, Wire
Fraud, Making false Statements Fraud and Strawmen.

24

United States V. Bryson, 2004 U.S. App Lexis 9677 (7th Cir) This case large a Complex Used
inflated appraisals andfalsified income obtain loans onresidence in excess of the true value,
obtaining and misleading documentation.
United State v. Jaffe (2007), 387 F. 3d 677 (Th Cir. 2004)
Defendant was charged with wire Fraud based on Inflated appraisals. Jaffe at679. He was
convicted ofparticipating ‘‘in a scheme to defraud and to obtain money and Property...from the
mortgage lender, National Lending Center, Inc., by means of materially false andfraudulent
pretenses, representations, promises and material omissions ....Id. The Principle had a Scheme to
trick mortgage lenders into financing sales ofproperties at greatly Inflated prices. Other things
in this case de-fendant falsely represented that he had $I00k in personal property. The Wire
aspect was satisfied by having money for the Down Payment wired to him. Mortgage Fraud
Prosecuted Under 18 U.S.C. 1344 (2007) (Bank Fraud)
United States V. Hachel 227 F. 3d 857,858 (97th Cir 2000)
Obtained Mortgages inflated Mortgage based on False Appraisals for Cash Back Loam.

United State v. walsh, 75 F. 3d 1 (1st Cir 1996) The defendants and four co-defendants were
charged with conspiracy, twenty-nine counts of bank fraud, and twenty-nine counts of making
false statements. Walsh at 3. ‘‘The substance of the indictment was that (the defendant] carried
out a scheme to defraud dime savings bank ofNew York by directing his employees to obtain 29
specific loans through use ofdeception

25

18 U.S.C. 1344 Aimed at Schemes to Defraudfederally chartered or insured Financial
Institution to obtain Property

(FFP) Fraudfor Profit
“Industry Insider Fraud, ”( Fraud For Profit)
Motive ‘‘Revolve Equity Falsely Inflate the Value of the Properly.

Fraud Black’s Law- Dictionary 685 (8th ed. 2005) Is defined as a “Knowing Misrepresentation
ofthe Material to induce another to act to his detriment”.

The Defendants in this case are Guilty of (FFP) and (FFH)
“Fraudfor Profit. ” And “Fraud For Housing)

10 U.S.C. 225 This title affects a Financial Institution, committed by at least 4 persons
continuing acting in concert
18 U.S.C Subsection (a) The term Continuing acting in concert financial crimes enterprise
means a series of violations under section 215,656,657,1005,1006,1007,1014,1032,1344
The Constitution State only one Command twice
The Fifth Amendment say’sto the Federal Government that
“No One Shall Be “Deprived ofLife, Liberty or Property without Due Process of the Law.

26

The Fourteenth Amendment Ratified in 1868, Uses the same ELEVEN Words, Called Due
Process Clause, to describe legal obligations of all States. These words have as their Central
Promise an assurance that all Levels ofAmerican Government Must operate within the law
(‘Legality”) and Provide fair Procedures.

The Law Promises that before depriving a Citizen ofLife, Liberty, or Property, thus, it is not
always enough for the Government just to act in accordance with whatever law there may
happen to be.
Citizens may also be entitled to have the Government observe offerfir Procedures, whether or
not those have been providedfor in the Law on the basis of which it is A CT1NG.
Action Denying the Process that is “DUE” would be Unconstitutional
A Violation of Cammie’s Right to Property. And “Due Process ofthe LA W”.

Cammie is Providing This U.S Supreme Court ofJustice in the Appendix ofthe Writ of
Certiorari evidence ofall Statements made to this court that Cammie Believes to be true based
on all the evidence Cammie is Providing to you and based on them Fact’s Presented to this
court for a Determination to Grant this Writ and protect The Owner the Rights to that
Property in which proven by the Facts Presented the Property at 14923 W. Eveningstar TrL In
Surprise AZ 85374 Belongs to Cammie Marceaux and Should be Immediately returned. And
the Damages to Cammie and Herfamily in this extremely Complex Case and as Colorful as it
was and Confusing as it was made out to be should be Granted no less them 100 Million
Dollars.

27

The facts Presented in Appendix A All Prior Courts Orders, Judgements, opinions and
Memorandums.
Cammie Marceaux v. Tiffany and Bosco et at, Defendants
/

Cammie Marceaux v. Steven Baker, et at,. Defendants
The Facts Presented for this Court Appendix B The “Expert Witness Report” Based on the
Trust Property at 14923 W. Eveningstar Tr. Surprise AZ 85374
The Assigninment to U.S. Bank N.A. Conducted June 20, 2017 to Foreclose on Cammie’s
Property after they could not convey a Proper title to a full Price Buyer Cammie had due to close
May 30, 2017 Cammie Lost her sale. Due to Unknown title issues. This Expert witness report
explains in Detail what happens to Cammie for 13 years. The Robo Assignment to the Trust after
the closing date and all the transaction this Investment Group that should have never been
created has had done on this property.

The Facts Presented for this Court in Appendix D This Assignment Conducted June 20, 2017
Was an Illegally Assigned Mortgage Note and VOID.
See Expert Witness Report page no,17 eleven Years has passed prior to the note that was
placed into the Adjustable Rate Mortgage Trust 2006-3
Depositor Credit Suissee First Boston Mortgage Securities Corp. is the only Rightful Party
that can place assets into the trust pursuant to investor offering documents as specified
above.
Page no. 18 and 19 Expert Witness Report. ROBO Signing Analysis and Findings. See also
page no 41.

28

See Appendix C according to this Assignment of the Deed of Trust Transfer to U.S. Bank N.A.
WAS an Illegally Assigned Mortgage Note to the trust in violation of the Pooling and Servicing
Agreement on the Trust with a Closing Date of July 1, 2006.
That was Conducted on June 20, 2017
See Appendix D Suburban Mortgage Corporation Lead Cammie to Believe she had a Fannie
Mac /Freddie Mac Government Loan Documents were used here. They were FAKE.

See Appendix E during in which time Cammie was in court against U.S. Bank N.A. And Wells
Fargo this Trustee Barrett Daffin Frappier Turner & Engle, LLP Demand they are the Trustee
and Representatives on my mortgage note for U.S. Bank National Association, as Trustee for
Adjustable Rate Mortgage Trust 2006-3, Adjustable Rate Mortgage -Backed Pass -Through
Certificates, Series 2006-3,
Party in interest in the captioned Proceedings of Stephen Joseph Zayler

See Appendix F Where the Subject Property was being sold to the Pubic by the Said Owner/
Agent Steven Baker. This listing was from 2006 notice the list price is no different then the
VALUE the property has today. Cammie Paid for the Property $57,000 Cash Wire Transfer to
Suburban Mortgage paid off the Pool $38,000 and paid for the Property 13 years then they stole
the Property why we were in court and her Money and got a Judgement in their favor?

See Appendix G Tiffany and Bosco “ Lenard J Me Donald” March 9th 2018 Non Judicial
Sale Foreclosure that utilizes his Power to force Cammie to act based on his “Threats” that he
was falsely and Neglectfully Foreclosing on Cammie based on a Trust for Wells Fargo on the

29
behalf of Note based on an illegal assignment of a Mortgage Note into the Trust in which he was
foreclosing on Cammie.

Cammie has had more Lawyers on her then The Attorney General Ken Paxton of the State of
Texas after this property and hiding the TRUST.

See Appendix H Joshua Zimmerman representing U.S. Bank N.A
Files with the court the sale Cammie was forced to do to the third-Party Investor F&F 3 LLC.
That the Attorney Utilizes to Further get his Client Dismissed from a Motion to reconsider the
Expert Witness Report Cammie Provided to the court on a Motion to Reconsider the Defendants
Dismissals.
See also Email Dated Aug 30, 2017 Cammie Replied to that email that day” I do not agree.”
“Gregory Marshall”, Wells Fargo Attorney Knowingly was participating in the Scheme Sends
Cammie this Email wanting to Modify a Fraudulent LOAN in which Wells Fargo Never had or
U.S. Bank N.A.? That is so illegal. Continue the Air Loan continue to hide the Liability Trust
with a continued Promise to Cammie that when she is done, she will own TITLE?
No, she will not, and Gregory Marshall is guilty as all Get out in this Constructive Fraud. This
email slams him in his little part to Hide the Liability Trust belonging to U.S.Bank N.A. in which
his Law firm is also Representing. U.S. Bank N.A. Joshua Zimmermen. Cammie had already
applied for and appealed the decision made by Wells Fargo modification Department twice. It
was just another GAME they were playing to get Cammie to Believe in their scheme.
To continue to Defraud Cammie using her Property to do so. Cammie No LONGER
BELIEVED.

30

See Appendix I Lawyers Title was deeply involved from the time Cammie Lost the sale of her
Property she had a Full Price offer on May 13,2017. Due to Close May 30,2017.
Through the Use of the Foreclosure and the Threats by Michael Rivera their agent provided the
Third Party investor F&F 3 LLC and for $16,000 forces Cammie to sign over her rights to Title.
They used threats on Cammie to get Cammie to sign over her Property rights based on an
illegally conducted Foreclosure being conducted for them to Hide the Property and the Securities
owed on the property so they continued the Crimes against Cammie to Take the Property and
stole Cammie’s Swimming POOL. Threats to Cammie’s Credit Profile and offered Cammie
$ 16,000 or they were just going to Ruin her LIFE for Property?
See Appendix J Michael Rivera, Worked for Lawyers Title Agency Obviously had prior
Knowledge of the Cammie Claim and Cammie’s Property or how else would he know to
contact “Cammie.”?
Cammie told Michael the Property was not for sale. Many times, this man Contacted
Cammie nonstop. IN the end Michael J Rivera Brought to Cammie’s Attention that a Foreclosure
was filled and the NON Judicial Sale was going to take place. Michael J Rivera told Cammie the
only 3rd party investor for Lawyers Title that would buy the infected Property was F&F 3 LLC
otherwise U.S.Bank N.A. Trustee Lenard J. McDonald would in fact charge her more fees and
foreclosure fees that she would have nothing left. And face a Foreclosure on Cammie’s Profile.
So For $ 16,000 Cammie signed in FRED TEXAS in Front of Judge JIM MORE the Notary on
this document this Assignment being conducted that Cammie was Being forced to sign under
duress that they were using and conducting an Illegally Conducted Foreclosure to steal her
property that she was signing but not willfully. And Judge JIM MORE of FRED TEXAS would

31

testify to that. Cammie was Forced to sign over her rights to her Property from the same
Investors that was stealing her money for 13 years on a property she could never own.
They all worked together and they Used there agent Michael J Rivera to threaten Cammie with
the Foreclosure to get her to sign over her rights to her Property for $16,000.00

See Appendix K Cammie Lost her Sale May 13,2017 Kim Stembridge was the BUYERS Title
agent for Title Insurance See page 1 of the K appendix where Kim talks about only being able
to be insured by Lawyers title agency. She refers Cammie to “Susan Neff” at Fidelity National
Title Legal Department at Fidelity National Title Agency who then refers Cammie to “John
Gamm” to handle the Title Claim Cammie Filled with “Capital Title Agency” documents
also provide the Agent information from Cammie seller “Paulette Davis” who was deeply
involved with helping Cammie be set up by the Buyer and the title Company to lose the sale and
get her Renters out of the property so they could take easy possession of the property.
Cammie Believes even the Purchase Contract with the Buyer from her Own agent was a
“FAKE”.
In Conclusion Mortgage Fraud is a Very Complex Industrial Insiders White Collar Crime.
Most often So Complex, So Confusing and So Colorful Even most State Justice Courts Judges
do not understand it.
They do not understand the Complexity of a Trust Property and pooling and servicing
agreements of a Trust property and The State Justices tend to believe in the power of
Administrative Law and have Administrative Attorneys that go with the Administration.
Regardless of the Facts Presented in the Case because them facts unless understood are then
confusing facts and a Judge can easily be lead to believe one thing when truly the documents if

32

interpreted Correctly proved a very different outcome for the Petitioner had the real facts of the
case been interpreted Correctly.
However, Cammie Believes the Lower Justice Court Don’t understand the Securities ACT of
1934. And they do not understand Mortgage Fraud and how it all works together and it’s so
complex they tend to dismiss it and agree with the Administrative Lawyers and believe what
they say without interpreting the evidence provided Correctly because they simple do not know
how to interpret the Documents Provided and believe what they are told to believe by the
Lawyers. That were able to convince them into believing what they say not what the actual
Documents are Provi ding as proof that to what they are saying is not the truth at all.
It’s Mortgage Fraud it’s not meant to be understood if everyone understood it, the sniesters
would not get away with it.

Only the Federal Courts Understand it can recognize it and

prosecute it under the Federal Laws that apply to it. Lower State Justices either do not
understand it or just want to ignore it. Because as a Single mom and looking at the Documents
Provided Could clearly interpret the evidence and apply the laws. As complex as it may seem it
is right here in BLACK and WHITE.
The 14,h Amendment States “Nor Shall any State deprive andperson ofLife, Liberty, or
Property without Due process of the law; nor deny any person within its jurisdiction the equal
Protection of the Laws.
The 5th Amendment of the United States Constitution includes a Provision known as the
TAKING CLAUSE, which States that “Private Property [Shall Not be taken for public use,
without just compensation. While the Fifth Amendment by itselfonly applies to actions by the
federal Government, the 14th Amendment extetids the takings Clause to actions by State and

Local Government as welt.

Reason for Granting the Writ for Certiorari

First of all, Federal laws were Violated under the Constitution Of the United
States Cammie is Protected by them Laws.
In violation of, “The Securities Exchange Act of 1934.”
Clearly is in violation of Federal Law and are present in this Case.
Our Government to Deny Cammie equal protection of them Laws that only the
Federal Government can enforce. Would be a Huge disappointment to the Public in
Which it Stands.
The Laws of the Land in which it was set out to Protect belonging to the People of
the United States under the Constitution of them Laws in which it was put in place
to Protect and enforce them Laws that are a clear Violation of Federal Laws. It’s
of Extreme Importance of the Public for the common Good of the People it is-our."
Duty to Protect them. When clearly a Violation of them Federal Laws Clearly have
been Violated. The Federal Government has a Duty to Protect Cammie and her
rights to her Property. Provide Equal Protection of them Federal Laws and Act for
her where all Prior State Justice Courts have failed to act.
Her American Dream was stolen.

Not Granting Cammie them Equal Protections of them laws and grant a “DUE”
Process when “DUE” Process is “DUE” Cammie has been denied in all other
Prior State Justice Courts. Would be Unconstitutional under federal law.
Under Federal Laws Cammie has Rights. Them Rights have been violated and
only the Federal Government can in fact Protect them Rights Under Federal Laws
that were clearly Violated and only the Federal Government Can Protect Cammie
and enforce them Laws that Clearly are a Violation of Federal Laws in which only
this Court of Last Resort can in fact Enforce.
The Public has an interest in this case and the outcome for Cammie and the Rights
to her Property and the outcome of the Crime Committed against her the right to
know the people that committed the crimes against her have been punished under
the Federal Laws in which they are clearly in violation of.
The Public has an extreme interest in the Outcome for Cammie as the Evidence
clearly state a Violation of the Federal Laws in which only the Federal
Government has the Power to Enforce.
The Public needs to know we have a Justice System in place that will protect
people and their Property under Federal LAWS.

CONCLUSION

The petition for a writ of certiorari should he granted.

submitted.
-----^

